No. 20-1648
In the

Supreme Court of the United States
JAMES H. FISCHER,
Petitioner,
v.
SANDRA F. FORREST, et al.
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION

Seth L. Hudson
Nexsen Pruet, PLLC
227 West Trade Street,
Suite 1550
Charlotte, NC 28202
(704) 338-5307

Daniel K. Cahn
Counsel of Record
Law Offices of
Cahn & Cahn, P.C.
105 Maxess Road, Suite 124
Melville, NY 11747
(631) 752-1600
dcahn@cahnlaw.com

Counsel for Respondents

306478

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Did the United States Court of Appeals for the
Second Circuit create a conflict with the Third and Fifth
Circuits when it held, after an intensive, fact-specific
inquiry, that the product name, “Fischer’s Bee-Quick”–
as used in the context of the single phrase “Fischer’s
Bee-Quick is a safe, gentle, and pleasant way to harvest
your honey” – does not constitute Copyright Management
Information (“CMI”)?
2. Does the Petitioner mischaracterize the basis and
scope of the Second Circuit’s holding and overstate its
potential impact on innovation and growth in the copyright
industry?

ii
CORPORATE DISCLOSURE STATEMENT
PURSUANT TO SUPREME COURT RULE 29.6
Pursuant to Supreme Court Rule 29.6, Respondent
Brushy Mountain Bee Farm, Inc. discloses the following:
Brushy Mountain Bee Farm, Inc. was dissolved on
December 31, 2020. As such, no parent or publicly held
corporation owns 10% or more of the stock of Brushy
Mountain Bee Farm, Inc.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT
PURSUANT TO SUPREME COURT RULE
29.6  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . v
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING THE WRIT . . . . . . . . . . . 5
I.

T H ER E I S NO CI RC U I T S PL I T
FOR THIS COURT TO RESOLV E.
THE THIRD AND FIFTH CIRCUIT
CASES CITED BY PETITIONER ARE
DISTINGUISHABLE ON MULTIPLE
GROUNDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. The Murphy case (3rd Circuit)  . . . . . . . . . . . 5
The “Double Scienter” Requirement . . . . . 11
B. The EIG case (5th Circuit) . . . . . . . . . . . . . .  17

II. PETITIONER MISCHARACTERIZES
THE SECOND CIRCUIT’S HOLDING
AND OVERSTATES ITS IMPACT ON
THE COPYRIGHT INDUSTRY . . . . . . . . . . . . 21

iv
Table of Contents
Page
A. Petitioner mischaracterizes both
the basis and scope of the Second
Circuit’s opinion . . . . . . . . . . . . . . . . . . . . . . 21
B. This case is not an appropr iate
vehicle for resolving any perceived
circuit conflict . . . . . . . . . . . . . . . . . . . . . . . . 26
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

v
TABLE OF CITED AUTHORITIES
Page
CASES:
Energy Intelligence Grp., Inc. v.
Kayne Anderson Capital Advisors, LP,
948 F.3d 261, 2020 U.S. App. LEXIS 1347
(5th Cir.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Mango v. Buzzfeed, Inc.,
97 F.3d 167, 2020 U.S. App. LEXIS 25674
(2d Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Microsoft Corp. v. AT&T Corp.,
550 U.S. 437, 127 S. Ct. 1746,
167 L. Ed. 2d 737 (2007) . . . . . . . . . . . . . . . . . . . . . . . 10
Murphy v. Millennium Radio Grp. LLC,
650 F.3d 295 (3d Cir. 2011) . . . . . . . . . . . . . . . . . passim
Zuma Press v. Getty Images, US,
845 Fed. Appx. 54, 2021 U.S. App.
LEXIS 6139 (2d Cir. 2021) . . . . . . . . . . . . . . . . . . . . . 12
STATUTES AND OTHER AUTHORITIES:
17 U.S.C. § 401  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
17 U.S.C. § 1201  . . . . . . . . . . . . . . . . . . . . . . . . .  6, 7, 15, 16
17 U.S.C. § 1202  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

vi
Cited Authorities
Page
17 U.S.C. § 1202(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
17 U.S.C. § 1202(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
17 U.S.C. § 1202(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
17 U.S.C. § 1202(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
17 U.S.C. § 1202(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
17 U.S.C. § 1202(c)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
STATEMENT OF THE CASE
Brushy Mountain Bee Farm is a great American
story. The company was started by former school teachers,
Stephen and Sandra Forrest (hereinafter, the “Forrests”).
Stephen Forrest had two hobbies – beekeeping and
woodworking. He began making bee hives and offering
them for sale to fellow beekeepers. He was able to sell the
beehives as fast as he could make them, realizing there
was a need for well-made beekeeping equipment around
the western North Carolina area.
Thereafter, he began constructing and selling other
beekeeping equipment. The Forrests realized there was
no centralized location or catalog where a beekeeper could
buy their beekeeping equipment. On a part-time basis, the
Forrests started Brushy Mountain for selling beekeeping
equipment. 1JA 1971.
Within a few years, the profits of Brushy Mountain
surpassed the salary the Forrests earned as school
teachers, so they left the teaching profession to concentrate
entirely on their new business venture. Brushy Mountain
eventually opened a retail location in Moravian Falls,
North Carolina and continued to expand rapidly. While
Brushy Mountain primarily manufactured and sold its
own products, it began including products from others in
its catalog. 1JA 197.
1. All citations to the Joint Appendix (JA) in the Second
Circuit are preceded by a number indicating the volume. For
example, the cite to “1JA 197” refers to page 197 of the first
volume of the Joint Appendix. Cites to the Special Appendix in
the Second Circuit begin with “SA” followed by the page number
of the Special Appendix. Citations to the Petitioner’s Appendix in
this Court will appear as “Pet. App. at __”.

2
Petitioner James H. Fischer (“Petitioner”) claims that
in 2000, he began using the following four phrases (the
“Phrases”), among others, in conjunction with the sale
of his product – “Fischer’s Bee-Quick” – on his website:
(a) “Are you tired of your spouse making you sleep
in the garage after using Butyric Anhydride?”
(b) “Are you tired of using a hazardous product on
the bees you love?”
(c) “Fischer’s Bee Quick is a safe, gentle, and
pleasant way to harvest your honey.
(d) “A Natural, Non-Toxic Blend of Oils and Herbal
Extracts”
SA 10; SA 52 [emphasis added].
However, the Forrests both testified that they wrote
the phrase “Are you tired of your spouse making you sleep
in the garage”. 1JA 186; 1JA 188.
In 2002, Brushy Mountain began purchasing Fischer’s
product, “Fischer’s Bee Quick” from Fischer or his
distributor, and Brushy Mountain then re-sold it through
its catalog.
The 2002 catalog was the first Brushy Mountain
catalog that included “Fischer’s Bee-Quick”, along
with about 1,000 other products. In preparing the
advertisement for the catalog, Brushy Mountain created
its own advertisement for “Fischer’s Bee-Quick”, hired
a draftsman to make line drawings of the product, and
Sandra Forrest designed the layout.

3
The “Fischer’s Bee-Quick” advertisement (with some
variation throughout the years), read as follows:
This 100% Natural, non-toxic blend of oils and
herb extracts works just like Bee Go® and
it smells good! Fischer’s Bee Quick is a safe,
gentle, and pleasant way to harvest your honey.
Are you tired of your spouse making you sleep
in the garage after using Bee Go®? Are you
tired of using a hazardous product on the bees
you love? Then this is the product for you!
1JA 199; 1JA 204, 216-217; 1JA 267.
From at least 2005 through 2010, Fischer authorized
Respondent s t o publ i sh “ F i scher ’s Bee - Q u ick ”
advertisements using the four Phrases from Petitioner’s
brochure, but the Respondents’ advertisement otherwise
bore no resemblance to the brochure in content or
appearance. SA 86. As previously noted, the Respondents
created their own advertisements using information that
they extracted from the Petitioner’s original brochure.
However, aside from the four Phrases among the many
used on Fischer’s brochure and website, there is no
similarity between Fischer’s original brochure and
Brushy’s advertisements. SA 33; SA 86; 1JA 267-268.
Around 2010, Brushy Mountain began having trouble
obtaining Bee-Quick from Fischer. 1JA 188; 1JA 183.
Because the supply of Bee-Quick became unreliable,
Brushy Mountain was left with no choice but to purchase
another product that served the same function from
another supplier and replace Bee-Quick. 1JA 183-184. This
other product was Natural Honey Harvester.

4
Brushy Mountain’s 2011 catalog included the following
advertisement for Natural Honey Harvester which used
substantially the same language as contained in the four
Phrases:
For years we have promoted the use of a natural
product to harvest honey but an unreliable
supply of such a product has forced us to come
out with our own. This 100% Natural, nontoxic blend of oils and herb extracts works
just like BeeGo® and it smells good! Natural
Honey Harvester is a safe, gentle, and pleasant
way to harvest your honey. Are you tired of
your spouse making you sleep in the garage
after using Bee-Go®? Are you tired of using
hazardous products on the bees you love? Then
this is the product for you!
1JA 159; 1JA 162-163. Brushy Mountain used the same or
a substantially similar advertisement for Natural Honey
Harvester in its 2012 through 2014 catalogs 1JA 267-268,
and on its website until December 28, 2011. 2JA 281.
In 2011, after their relationship w ith Fischer
terminated, Respondents published their advertisement
for Natural Honey Harvester, which copied their own
2010 advertisement – which, in turn, they had created
by extracting the Phrases and other information from
Fischer’s brochure and creating a new advertisement.
However, Respondents replaced the textual reference
in one of the Phrases – “Fischer’s Bee-Quick” – with
“Natural Honey Harvester.” 1JA 267-268; SA 86.
It is undisputed that the words “Fischer’s Bee-Quick”
were never removed from the Petitioner’s original work

5
(i.e, the brochure), or a copy thereof. Petitioner has
never challenged the fact that the Respondents’ 2011
advertisement was not a copy of his original brochure and
bore no resemblance to it.
REASONS FOR DENYING THE WRIT
I.

THERE IS NO CIRCUIT SPLIT FOR THIS
COURT TO RESOLVE. THE THIRD AND FIFTH
CIRCUIT CASES CITED BY PETITIONER ARE
DISTINGUISHABLE ON MULTIPLE GROUNDS.

The Second Circuit’s decision in this case is not in
conflict with the Third and Fifth Circuit cases cited by
Petitioner, and an examination of the facts of those two
cases reveals that they are clearly distinguishable on a
number of grounds. Because the cases are not analogous,
Petitioner’s argument that the Second Circuit imposed
a new, limiting contextual requirement on the definition
of CMI is incorrect. In this case, a different set of facts
required a different result, and that result does not limit
the definition of CMI under the DCMA, does not create
a circuit split, and does not warrant this Court’s review
of the case on the merits.
A.

The Murphy case (3rd Circuit)

The case of Murphy v. Millennium Radio Grp. LLC,
650 F.3d 295 (3rd Cir. 2011) involved Peter Murphy, a
photographer who was hired by a magazine publication,
New Jersey Monthly (“NJM”), to take a photo for their
“Best of New Jersey” issue. The photo was of two radio
personalities who had been voted “best shock jocks” in
New Jersey standing, apparently nude, behind a sign
advertising the station.

6
The photo in question – which appeared on two
different pages in the magazine – contained a gutter credit
to the photographer, Peter Murphy, which appeared in the
lower right corner on one page and the lower left corner
on the other page, perpendicular to the photo. The portion
of the gutter credit on the two pages that is relevant to
Murphy’s claims read as follows: “Photo: Peter Murphy”.
A radio station employee then scanned the photo
from the magazine but removed the gutter credit to
the photographer and copyright owner, Peter Murphy,
and then posted it on the radio station’s website and
on another website. But the radio station went even
one step further by inviting viewers of the website to
alter the photo and to send in their altered versions.
Ultimately, the station posted 26 altered versions of
the photo to their website as well as the copy of the
original photo – all without the gutter credit to Murphy.
		
In Murphy, the radio station defendants
argued that even though the DCMA, 17 U.S.C. § 1202(c),
clearly defines CMI to include the name of the author
of the work or owner of the copyright, § 1202 cannot be
read in isolation. Instead, they argued that § 1202 must
be interpreted in conjunction with 17 U.S.C. § 1201,
which covers systems that protect copyrighted materials.
Therefore, defendants argued Murphy’s name was not
CMI because, even though meeting the definition under
§ 1202(c)(2), it did not function as part of an “automated
copyright protection or management system” under 17
U.S.C. § 1201.
The Third Circuit in Murphy focused on the plain
text of the definitions section of § 1202(c) because the
defendants were trying to argue that the photographer’s

7
full name, “Peter Murphy” – which is how his name
appeared in the gutter credit – was not CMI, even though
the statute says that it is. See, Pet. App. at 97A, 17 U.S.C. §
1202(c)(2) (“The name of, and other identifying information
about, the author of a work”) and § 1202(c)(3) (“The name
of, and other identifying information about, the copyright
owner of the work”).
The Murphy Court properly concluded that § 1202
cannot be read to include the limitations in § 1201, which
would be directly in conflict with the statute’s wording and
plain meaning. But the Murphy case – which was correctly
decided by the Third Circuit, and would have been decided
the same way in the Second Circuit – is distinguishable
from the case at bar for a number of reasons.
First, the gutter credit that was removed from
the photo in Murphy was exactly that: a credit to the
photographer which listed his full name, Peter Murphy.
The words that were removed in that case, as relevant
to Murphy’s claim, were “Photo: Peter Murphy”. Those
words did not refer to a product (or, in Murphy’s case, to
the radio station, or to the shock jocks, or their show).
The words that were removed in Murphy were a
credit to the photographer and could not be reasonably
interpreted any other way. The words “Photo: Peter
Murphy” are not analogous to the words “Fischer’s Bee
Quick”, which was part of the longer phrase “Fischer’s
Bee-Quick is a safe, gentle, and pleasant way to harvest
your honey.”
A gutter credit is not ambiguous. It is absolutely clear
what the gutter credit in Murphy was. It was attribution

8
given to the author of the photo who, in Murphy’s case,
was also the copyright owner. In contrast, nothing about
“Fischer’s Bee-Quick” implies that Fischer is the author of
the phrases in the advertisements or the copyright owner.
Another significant distinction is that in Murphy,
the gutter credit was removed from the original work
or a “copy” or “display” thereof. 17 U.S.C. § 1202(c).
The Murphy Court stated that the original photo as
published in the NJM magazine was scanned by a radio
station employee, and then that image was re-posted to
two different websites, but without the gutter credit to
Peter Murphy.
Therefore, in Murphy – unlike in this case – the words
that were actually removed from the photo not only plainly
met the statutory definition of CMI in § 1202(c), but were
also removed from a “copy” of the original work. 17 U.S.C.
§ 1202(c).
In contrast, the words that were removed from
Respondents’ 2010 advertisement (which Brushy designed
itself and which bore no resemblance to Fischer’s original
brochure) and replaced with “Natural Honey Harvester”
in its 2011 advertisement, were “Fischer’s Bee-Quick”. Not
“Fischer’s”. Not “James Fischer” or “Copyright James H.
Fischer”, nor any other phraseology attributing anything
to Mr. Fischer, other than his possibly being the owner
or producer of the product being advertised. What was
removed was the name of a product: “Fischer’s Bee-Quick”
– not the name of the person, James H. Fischer.
But Pet it ioner wa nt s t o have it bot h ways,
disingenuously arguing that the product name is “Bee

9
Quick” but that the word “Fischer’s” before it is CMI.
Throughout his brief, Petitioner mentions only the word
“Fischer’s” being removed. See, e.g., Pet. Brief at 7
(“Brushy removed two names from the advertisement:
(1) Fischer’s name, i.e., Fischer’s; and (2) the original
product name, i.e., Bee Quick”); Pet. Brief at 8 (“Fischer
never authorized Brushy to remove his name from his
advertisement”); Pet. Brief at 19 (“Fischer’s name was
‘simply replaced’ out of the advertisement he wrote…”);
Pet. Brief at 21 (“the Second Circuit held that Fischer’s
name…was not CMI”); Pet. Brief at 22 (“Fischer’s name
was not CMI”).
However, Petitioner consistently and conveniently
omits the fact that “Fischer’s” was not the only word
removed, and that “Fischer’s” as used in the advertisement
was a reference to the product, “Fischer’s Bee-Quick”,
and not to the individual, as the Second Circuit and the
District Court determined after a painstaking, intensive,
fact-specific inquiry.
Indeed, the bottle of the product clearly labeled
the product as “Fischer’s Bee-Quick,” not simply “BeeQuick,” as did the brochure. SA 89. Petitioner continues to
misrepresent that only the word “Fischer’s” was removed
from the ad, when in reality, the entire phrase “Fischer’s
Bee-Quick” was removed.
In Murphy, the statute stated the opposite of what
the defendants in that case were arguing. Section 1202(c)
says that CMI includes, among other things, the “name
of…the author of the work”. Peter Murphy is the name of
the author of the photo, and the gutter credit which read
“Photo: Peter Murphy” made that abundantly clear under
any reasonable analysis, which defendants did not contest.

10
Moreover, at page 6 of the Murphy decision, the
Third Circuit discussed the reason for the DCMA: “The
DMCA was passed in 1998 to address the perceived need
of copyright owners for ‘legal sanctions’ to enforce various
technological measures they had adopted to prevent the
unauthorized reproduction of their works. See Microsoft
Corp. v. AT&T Corp., 550 U.S. 437, 458, 127 S. Ct. 1746,
167 L. Ed. 2d 737 (2007). It also served ‘to conform United
States copyright law to its obligations under two World
Intellectual Property Organization (‘WIPO’) treaties,
which require contracting parties to provide effective
legal remedies against the circumvention of protective
technological measures used by copyright owners.’”
Murphy, 650 F.3d 295, 300.
It is curious that Petitioner argues his last name
“Fischer’s” – as used in the text that was removed – is
CMI, even while acknowledging that there can be CMI
removal that is not actionable. Pet. Brief at 18. Petitioner
makes no attempt to argue that his name was removed
from his original brochure or website, or a copy or display
thereof. He has fully conceded this separate but equally
determinative ground for dismissal of his CMI claim.
Therefore, it is difficult to understand what Petitioner
stands to gain by having the Court declare his name to be
CMI, if he already knows that he has no remedy because
on a totally separate ground, no CMI was ever removed
from his original work or a copy thereof.
If the purpose of the statute, as the Third Circuit
noted, is to address copyright owners’ perceived need
for legal sanctions and to provide effective legal remedies
against circumvention of protective technological

11
measures used by them, then declaring Fischer’s name
as used in the advertisement in question as CMI would
do neither of these things.
Declaring that “Fischer’s” (as used in “Fischer’s BeeQuick is a safe, gentle, and pleasant way to harvest your
honey”) is CMI would not afford the Petitioner any legal
sanctions for its removal. Nor would it provide Petitioner
with an effective legal remedy against circumvention of
protective technological measures. In other words, nothing
would be accomplished by declaring the name “Fischer’s”
(as used in the “Fischer’s Bee-Quick” advertisement as
a product name) to be CMI, because Petitioner would not
have an actionable claim for its removal in any event.
Petitioner may be seeking a moral victory or to be the
martyr for copyright owners nationwide and ‘take one for
the team’. But at this stage of the proceedings, one thing
is certain. Even if this Court concludes that the Second
Circuit’s holding requires some type of clarification, it is
nonetheless still too late for Fischer to claim that he is
entitled to any relief, as his CMI removal claim fails on
two separate grounds, one of which he has effectively
conceded.
The “Double Scienter” Requirement
Petitioner also would not have an actionable claim
in this case, in part, because there is a double scienter
requirement applicable to CMI removal claims. The
remover must intentionally remove or alter CMI;
distribute CMI knowing that the CMI has been removed
or altered without authority of the copyright owner; or
distribute works or copies of works knowing that CMI

12
has been removed or altered without authority of the
copyright owner, knowing or having reasonable grounds
to know, that it will induce, enable, facilitate, or conceal an
infringement. Pet. App. at 96A-97A, 17 U.S.C. § 1202(b)(1)
- (b)(3). See also, Mango v. Buzzfeed, Inc., 97 F.3d 167, 2020
U.S. App. LEXIS 25674 (2nd Cir. 2020) (defendant who
distributes improperly attributed copyrighted material
must have actual knowledge that copyright management
information has been removed or altered without authority
of the copyright owner or the law, as well as actual or
constructive knowledge that such distribution will induce,
enable, facilitate, or conceal an infringement); see also,
Zuma Press v. Getty Images, US, 845 Fed. Appx. 54,
2021 U.S. App. LEXIS 6139 (2nd Cir. 2021) (reaffirming
the so-called ‘double scienter’ requirement). Therefore,
if the remover does not know that what they removed is
protected CMI, they would not have the requisite intent
or knowledge to provide the author or copyright owner
with an effective legal remedy.
In Murphy, the radio station employee knew or should
have known when they removed the words “Photo: Peter
Murphy” from the scanned magazine photo, that they
were removing a photo credit to the photographer or
author of the photo. There is no ambiguity about the words
“Photo: Peter Murphy”. The radio station must have had,
or reasonably should have had, the requisite intent and
knowledge about what it had removed and how it would be
used and reproduced by others without proper attribution
to the photographer. Any doubts about whether the radio
station in Murphy had the requisite knowledge and intent
can be resolved by its act of inviting the public to alter
the photos, and its posting of 26 of these altered photos on
its website – all without attribution to the photographer.

13
In contrast, Brushy Mountain did not know or believe
that “Fischer’s” was CMI, or that the words “Fischer’s
Bee-Quick” that were removed from its authorized 2010
advertisement to create its 2011 advertisement – both
of which Brushy designed – referred to anything other
than the product, Fischer’s Bee-Quick. Based upon these
significant factual differences, Murphy is not analogous
and bears no relevance to the instant case.
Petitioner also incorrectly states that the Murphy
case would have been decided differently if the Second
Circuit had applied its “context-based” approach. Pet.
Brief at 22. That is simply incorrect. The Second Circuit
would have decided the case the same way as the Third
Circuit decided it.
Respondents respectfully submit that, on a CMI
removal claim, it is always necessary for the Court to
review the words or phrases removed from a copyrighted
work in context. The Second Circuit did not break any
new ground here. For example, the context of the words
removed in the Murphy case (“Photo: Peter Murphy”) are
quite clear. There is no reasonable interpretation of those
words other than that they are intended to be a credit to
the photographer who took the photo. But the fact that
the context in which the removed words or phrases are
used is readily discernible does not mean that context is
not relevant, or is non-existent.
On a CMI removal claim, the Court must examine
whether a remover had the requisite intent and knowledge
that they were removing CMI, and/or that they knew that
such removal would lead to further acts of infringement.
When the words or phrases removed do not fit neatly into

14
the statutory definition of CMI, as they did in Murphy, the
Court must look to the words or phrases that were removed
in context in order to understand what information was
intended to be conveyed.
The radio station in Murphy removed the words
“Photo: Peter Murphy” which had been placed next to
the photo that Peter Murphy had taken. The context in
Murphy can only reasonably be interpreted in one way:
that the words removed from the photo were attribution
to the photographer. Thus, anyone attempting to remove
those words would have the requisite knowledge and intent
under the statute. But just because it is obvious what the
context was in Murphy does not mean that context is
irrelevant.
In the case at bar, the name removed was only part
of Mr. Fischer’s name and it was combined with other
words in the phrase “Fischer’s Bee-Quick is a safe, gentle,
and pleasant way to harvest your honey”. The context in
which the word “Fischer’s” was used as part of the product
name, “Fischer’s Bee-Quick”, was readily discernible to
the Second Circuit. The word “Fischer’s” as used in the
advertisement clearly refers to the product and not to the
author of the phrases or the copyright owner.
It was perfectly reasonable for the Court to view those
words in the context of the advertisement from which they
were removed in order to determine whether “Fischer’s
Bee Quick” constituted CMI in the first instance; and if so,
whether the words “Fischer’s Bee Quick” were removed
from Petitioner’s original brochure or a copy thereof.
The name “Fischer’s” as used in the “Fischer’s BeeQuick” advertisement fails both of those tests. Contrary

15
to Petitioner’s claim that the Second Circuit would have
decided the Murphy case differently, the Second Circuit’s
holding in this case is in harmony with and would not
disturb the holding in Murphy.
Petitioner cites to the following language from the
Murphy decision as support for his argument that the
Second Circuit incorrectly determined that “Fischer’s”
is not CMI:
Read in isolation, § 1202 simply establishes
a cause of action for the removal of (among
other things) the name of the author of a work
when it has been “conveyed in connection
with copies of” the work. The statute imposes
no explicit requirement that such information
be part of an “automated copyright protection
or management system,” as the Station
Defendants claim. In fact, it appears to be
extremely broad, with no restrictions on the
context in which such information must be used
in order to qualify as CMI.
Murphy, 650 F.3d at 302 (emphasis added). To the extent
that the Murphy court stated that the statute “appears”
to be extremely broad, “with no restrictions on the context
in which such information must be used in order to qualify
as CMI”, that Court was faced with a different analysis
than the Second Circuit in this case.
The radio station defendants in Murphy were arguing
that a claim under § 1202 must be analyzed in conjunction
with § 1201, which deals with circumvention of copyright
protection systems. The Murphy Court merely held

16
that § 1201 and § 1202 establish independent causes of
action which arise from different conduct on the part of
defendants, albeit with similar civil remedies and criminal
penalties. The Court even noted that some District Courts
have held otherwise, and have placed such a limitation
on § 1202 claims. Id. Fischer conveniently omits the fact
that other Courts have placed limitations on the scope
of § 1202, thus narrowing its definition. The fact that
the Third Circuit chose not to place such a limitation on
§ 1202 does not mean that all limitations in all circumstances
are ‘statutorily unmoored’ or ‘unrealistic and exaggerated”.
Pet. Brief at 10.
Respondents respectfully submit that the Second
Circuit did not place any new limitations or restrictions
on the scope of § 1202’s definition of CMI. Different facts
required a different result, and the result in the Second
Circuit’s Opinion is in harmony with the purpose of the
DCMA. Respondents also submit that the Second Circuit
correctly determined that the name “Fischer’s” – as used
in the longer phrase “Fischer’s Bee-Quick is a safe, gentle,
and pleasant way to harvest your honey” – is not CMI
because it refers to the product and not to the individual,
James H. Fischer. As the Court reasonably concluded:
While an author’s name can constitute CMI,
not every mention of the name does. Here,
“Fischer’s” is part of a product name; it is not
a reference to “James H. Fischer” as the owner
of a copyrighted text. Nor is the name “[t]
he title and other information identifying the
work” or “[t]he name of, and other identifying
information about, the author of the work” as
required by the statute.

17
Pet. App. at 17A. The Second Circuit thoroughly analyzed
the facts before it, as did the District Court, and both
Courts reached the same conclusion: “Fischer’s” as used
in the “Fischer’s Bee-Quick” product advertisement does
not qualify as CMI.
However, if this Court concludes that the Second
Circuit and the District Court both erred by imposing
an unnecessary limitation or restriction on § 1202, then it
can issue a clarification, if the Court deems it necessary.
But even if this Court were to find that the name
“Fischer’s” must be viewed in isolation (and not in the
context in which the name was actually used in the
allegedly infringing ad), and therefore it qualifies as CMI
in this case, Petitioner’s claim for removal of CMI would
still fail because, as previously noted, the word “Fischer’s”
was not “conveyed in connection with copies or displays
of a work.” 17 U.S.C § 1202(c).
For all of the foregoing reasons, the Murphy case is
not analogous to the case at bar, and more importantly,
the holding in Murphy does not in any way conflict with
the Second Circuit’s holding in this case. Therefore, the
writ should be denied pursuant to Supreme Court Rule 10.
B. The EIG case (5th Circuit)
The other case that Petitioner incorrectly argues is
in conflict with the Second Circuit’s decision is the Fifth
Circuit case of Energy Intelligence Grp., Inc. v. Kayne
Anderson Capital Advisors, LP, 948 F.3d 261, 2020 U.S.
App. LEXIS 1347 (5th Cir.) (hereinafter, “EIG”).

18
In the EIG case, the plaintiff was a publisher of
information and news relevant to the global energy
industry. The defendants were boutique investment firms
who did a substantial amount of business in the energy
sector. One of the defendants’ employees subscribed to
one of EIG’s daily newsletters called Oil Daily under a
single user license, which was upgraded years later to a
license for five users.
Oil Daily was always marked with copyright notices
and warnings compliant with the notice requirements of 17
U.S.C. § 401. Each newsletter contained a copyright notice
on the front cover and masthead. The Oil Daily newsletter
was emailed to subscribers as a PDF file with a filename
of “DE” followed by the date in YYMMDD format.
However, in spite of the copyright notices, for many
years the defendant’s employee routinely shared his Oil
Daily access with other employees and third parties, in
violation of his subscription agreements and copyright law.
In a deliberate attempt to evade detection by EIG, he had
an assistant rename the PDF files “123” and distribute
them to other employees and third parties who did not
have a valid subscription.
As previously noted, the defendants ultimately
purchased a 5-user license. However, they continued to
circulate Oil Daily to at least 20 individuals on a daily
basis. At trial, EIG identified 425 instances where the
defendants had renamed the Oil Daily PDF file as “123”
and distributed it to other employees and third parties.
The question in EIG was whether a PDF filename
constitutes CMI. The Fifth Circuit held that it does,

19
but not because it constitutes the “name of the author,
copyright owner, or performer”. Rather, this case fell
under the category of “other identifying information
about” the author, copyright owner, or performer. Thus,
it is difficult to see the relevance of the EIG decision to
this case. The Court in EIG did not address whether
the last name of the copyright owner or author – when
combined with other words in a longer phrase used to
advertise a product – constitutes CMI. Therefore, the
case is not analogous and does not provide any guidance
whatsoever for this Court to rule on the Second Circuit’s
determination.
Another significant distinction is that in the EIG case,
the infringers knew exactly what they were doing, and
they even exchanged emails openly admitting that they
were renaming the PDF filename specifically to evade
detection by EIG. Thus, they had the requisite knowledge
and intent required under the statute.
Moreover, the Oil Daily newsletter that was
unlawfully distributed to individuals who did not
possess a valid license was identical to the newsletter
that was emailed to the employees who did have a
valid license. In other words, in EIG the PDF filename,
which was held to constitute CMI, was removed
from a copy of the original work which is required by
§ 1202(c).
In contrast, Brushy’s 2011 advertisement for Natural
Honey Harvester bore no resemblance to the original
brochure. Therefore, unlike the defendants in the Murphy
and EIG cases, Brushy did not have the requisite intent,
and it did not remove any words or phrases from the
original or a copy thereof.

20
The Second Circuit correctly applied a plain reading
of the statute, noting the following:
Here, “Fischer’s” is part of a product name; it
is not a reference to “James H. Fischer” as the
owner of a copyrighted text. Nor is the name
“[t]he title and other information identifying the
work” or “[t]he name of, and other identifying
information about, the author of the work.”
Pet. App. at 17A.
While the Murphy and EIG cases in the Third and
Fifth Circuits are distinguishable from this case on a
number of significant grounds, neither of those decisions
conflicts with the Second Circuit’s holding in this case.
Contrary to Petitioner’s arguments, the Second Circuit
would not have decided Murphy or EIG any differently.
Supreme Court review is not warranted in this case
because the alleged circuit split is illusory. The Second
Circuit’s opinion is aligned with other circuits, and it
likewise does not split with other circuits. The Second
Circuit’s approach to CMI is consistent with the Third
and Fifth Circuits.

21
II. P E T I T I O N E R M I S C H A R A C T E R I Z E S
THE SECOND CIRCUIT’S HOLDING A ND
OVERSTATES ITS IMPACT ON THE COPYRIGHT
INDUSTRY
A.

Petitioner mischaracterizes both the basis and
scope of the Second Circuit’s opinion.

The Court’s finding that “context matters” was not
surprising in light of the specific facts of this case, where
one word – “Fischer’s” – that might otherwise qualify as
CMI on its own under different facts not present here,
was combined with other non-CMI words that, when
taken together, clearly referred to a product: “Fischer’s
Bee-Quick”.
The District Court and the Second Circuit took a
reasonable approach to this unique factual scenario that
is neither “statutorily unmoored” nor “unrealistic and
exaggerated”, as Petitioner would have this Court believe.
Pet. Brief at 10. Nor did the Court engage in “statutory
supplementation” that is a “significant departure from
the permissible modes of statutory interpretation.” Id.
In fact, the Court employed a plain reading of § 1202(c)
and concluded that “Fischer’s Bee-Quick” was not CMI
because it was not “conveyed in connection with copies…
of a work”. 17 U.S.C. § 1202(c).
Petitioner paints a picture of a much broader holding
that will affect other rightsholders across the board,
regardless of the type of CMI they are trying to protect.
That is simply untrue. The scope of the Second Circuit’s
determination that a person’s last name is not CMI when
it is combined with other words or phrases to advertise a

22
product, appears to be limited to factual scenarios that are
similar to the facts of this case. Contrary to Petitioner’s
contentions, the Second Circuit’s holding would have no
bearing on the Murphy or EIG cases and is in harmony
with those cases, and does not create a circuit split.
Petitioner also wrongly accuses the Second Circuit of
omitting an important element of a CMI removal claim
in its analysis: the mens rea requirement. Pet. Brief at
13-14. This is also incorrect. The Second Circuit expressly
acknowledged that § 1202 realizes the aim of ensuring
integrity in the electronic marketplace by preventing
fraud and misinformation, by:
“prohibit[ing] intentionally providing false
copyright management information… with the
intent to induce, enable, facilitate, or conceal
infringement. It also prohibits the deliberate
deleting or altering [of] copyright management
information.”
Pet. App. at 17A (emphasis added). The Court’s use of the
words “intentional” and “deliberate” show that it was well
aware that knowledge and intent are required.
Petitioner also fails to note that it was unnecessary for
the Court to even analyze whether the Respondents had
the requisite knowledge and intent, because the Court had
already ruled that the text that was removed was not CMI
and was not conveyed in connection with copies of Fischer’s
original work. Therefore, it is a mischaracterization for
Petitioner to state that the Second Circuit “forgot an
element of a claim”. Pet. Brief at 14.

23
Petitioner also mischaracterizes the basis of the
Second Circuit’s holding by stating that under the Second
Circuit’s approach,
attribution to a photograph within a broader
magazine or catalog would be rejected as not
CMI. To the Second Circuit, Fischer’s name
was not CMI because it was “used in material
published by a third party […] which contains
advertisements for dozens of other products
from many different suppliers[.]”
Pet. Brief at 22. This misrepresents what the Court
actually said:
“Fischer’s Bee Quick” used in material published
by a third party like Brushy Mountain, which
contains advertisements for dozens of other
products from many different suppliers, cannot
be reasonably construed as an identifier of
the copyright holder of the advertising text.
In other words, “Fischer’s” in “Fischer’s Bee
Quick” is not used for ‘managing’ copyright
information with respect to the text at issue.
Pet. App. at 19A. This was not the basis of the Court’s
holding. It was merely a comment further supporting the
Court’s legal conclusion, which it had already made earlier
in the opinion, that “Fischer’s” as used in the product
advertisement in question, was not CMI. The words
themselves, and the fact that those words advertised a
product (and that the name “Fischer’s” was not conveyed
in connection with copies of the original work) formed
the actual basis for the Court’s holding. The Second

24
Circuit did not reach its determination on the CMI issue
solely because the word “Fischer’s” was contained in an
advertisement in a magazine that contained many other
advertisements, as Petitioner would have this Court
believe.
Petitioner’s arguments about computer code and
other embedded CMI and the potential impact on the
copyright industry are a red herring, either because
(1) that type of CMI data is clearly understood by any
reader or computer-savvy individual who has access to
the embedded data and the ability to remove it, to be CMI
(or at least some type of legally protected information);
or (2) if the data is hidden and nobody can see it, it would
be impossible to prove that the individual who removed
the CMI data had the requisite knowledge and intent that
are required on a CMI removal claim.
The same can be said about the various entities who
make up the Amici Curiae. While many of these entities
have worthy policy goals which Respondents fully support,
Amici’s concerns that the Second Circuit’s holding in
this case will “threaten the current infrastructures built
upon a clear understanding of what constitutes CMI”
and “bleed into its sister circuits that took an alternative
approach” are unfounded. Amici Curiae Brief at 5. They
mischaracterize the Second Circuit’s holding in the
same way that Petitioner does. They both complain that
the Second Circuit should have employed the plain text
approach to interpreting the statute. But the Court did
exactly that.
A plain reading of the statute reveals that in order to
qualify as CMI, the name or other identifying information

25
about an author or copyright owner must be “conveyed
in connection with copies of a work.” 17 U.S.C. § 1202(c).
As previously noted, the name “Fischer’s” as used in
the advertisement for “Fischer’s Bee-Quick” was never
conveyed in connection with copies of his original work,
and the Court stated as much. For this reason alone, the
name “Fischer’s” is not CMI.
Even if the Second Circuit’s holding can be considered
a narrowing of the definition of CMI, it is a limited holding
that would only apply in limited circumstances, but it is
nonetheless a common sense approach to a unique issue.
There is no meaningful policy goal achieved by declaring
a relatively common last name to be CMI when it is
combined with other words such that it clearly refers to
a product, especially where it has not been conveyed in
connection with a copy of the original work. None of the
purposes of the DCMA would be realized. Respectfully,
it is the Petitioner and the Amici Curiae – not the Second
Circuit – who seek to impose a strained interpretation of
the definition of CMI upon the industry.
If this Court concludes that the Second Circuit erred
when it agreed with the District Court that the name
“Fischer’s” is not CMI as used in the phrase “Fischer’s
Bee-Quick is a safe, gentle, and pleasant way to harvest
your honey”, and that a clarification of the definition of
CMI in § 1202(c) is needed, it would be a moral victory for
the Petitioner, but it would not change the result.
The CMI removal claim would still be dismissed on
the separate ground that no CMI was removed from a
copy of Petitioner’s original work. Fischer failed to cite
to any evidence in the record to dispute the Respondents’

26
proof that they never altered or removed any verbiage
(much less any verbiage that could constitute CMI) from
Fischer’s original work. Petitioner has never attempted
to dispute this point, and it is beyond challenge now.
Because the CMI removal claim required dismissal
on the separate ground that no CMI was removed from
Petitioner’s original work or a copy thereof, any error
by the Second Circuit in affirming the District Court’s
holding that “Fischer’s” did not constitute CMI, would
be harmless error.
The Second Circuit’s opinion will have a negligible
effect on future cases, if any. The Court’s holding would
apply in limited circumstances, but it is nonetheless a
common sense approach to a unique set of facts, utilizing
the plain-text approach. There is no cognizable policy
goal to be achieved by declaring a relatively common last
name, when used in combination with other words as the
name of a product, to be CMI.
There is no circuit split, nor any other basis under Rule
10 for this Court to hear the case on the merits.
B. This case is not an appropriate vehicle for
resolving any perceived circuit conflict.
Petitioner misstates the facts and omits an alternative
and over-arching ground supporting the Second Circuit
and District Court’s decisions. A completely independent
ground for denying the CMI removal claim is that the
product name “Fischer’s Bee-Quick” was not removed
from the original work or a copy thereof as required by
17 U.S.C. § 1202(c) and thus does not constitute CMI.

27
Respondents removed the words “Fischer’s Bee-Quick”
from their own advertisement – not Fischer’s ad – that
Respondents created from Fischer’s brochure. Petitioner
does not even attempt to challenge this undisputed finding
of the District Court.
Viewing the stark differences between Fischer’s
brochure and Brushy’s advertisement (i.e., different fonts
and font sizes, different look and shape), the District
Court – adopting the Magistrate Judge’s Report &
Recommendation in its entirety – properly concluded that:
[E]ven assuming that Fischer’s brochure and
website are “works” covered by the DCMA,
Fischer cannot maintain a claim based on
removal of CMI from either source. That is
because no CMI was removed from his original
brochure, his website, or a copy or display of
them.
Aside from the four phrases noted above,
Brushy’s advertisement bears no resemblance
whatsoever to Fischer’s brochure or website.
In those cases there where claims of CMI have
been held viable, the underlying work has been
substantially or entirely reproduced.
***
This requirement accords with the DCMA text
that requires CMI to be “conveyed in connection
with copies … of a work … or displays of a work.”
17 U.S.C. § 1202(c). Fischer’s brochure and
website are not, however, copied here. Aside

28
from four discrete phrases among the many
used on Fischer’s brochure and website, there
is no similarity between Fischer’s original
works and Brushy’s advertisement. Brushy
cannot be said to have removed CMI from these
of Fischer’s original “works”.
(Pet. App. at 63A-64A) [emphasis added].
Therefore, unlike the defendants in the Murphy and
EIG cases, Brushy did not remove any words or phrases
from the original brochure or a copy thereof. This finding
is fatal to the Petitioner’s CMI removal claim. As the
District Court noted:
A side from the four phrases…Br ushy ’s
advertisement bears no resemblance whatsoever
to Fischer’s brochure or website. In those cases
where claims of removal of CMI have been
held viable, the underlying work has been
substantially or entirely reproduced.
See, Pet. App. at 64A (emphasis added). The District Court
properly concluded that the work of Brushy at issue “is
an advertisement based upon an earlier advertisement
which in turn drew upon various materials Fischer sent
to Brushy.” Pet. App. at 66A.
Not surprisingly, Petitioner’s brief omits any mention
of this completely separate basis for the dismissal of his
CMI removal claim. Because there were two completely
independent grounds for the District Court and Second
Circuit to dismiss the claim – and Petitioner only
challenges one of those grounds – his CMI removal claim
fails.

29
T h i s i s sig n i f ic a nt bec ause it bea r s on t he
appropriateness of this case as a vehicle to resolve any
perceived circuit conflict. Petitioner would have this Court
believe that this is the right case to resolve the alleged
circuit conflict because the only issue before the Court
would be whether “Fischer’s Bee-Quick” constitutes CMI.
However, that is not true.
The lower courts also had to analyze and determine
whether the words “Fischer’s Bee-Quick” were removed
from Petitioner’s original work or a copy thereof. If this
Court grants the Petition, then it will also have to address
this other equally important ground for the Second
Circuit’s affirmance of the District Court.
For these reasons, this case is not the appropriate
vehicle for this Court to resolve any perceived conflict
between the circuits. A more appropriate case would be
one with a fact pattern that is similar to the Murphy and/
or EIG cases.

30
CONCLUSION
For all of the foregoing reasons, Respondents
respectfully submit that the Petition for a Writ of
Certiorari should be denied.
Dated: October 1, 2021
Respectfully submitted,
Seth L. Hudson
Nexsen Pruet, PLLC
227 West Trade Street,
Suite 1550
Charlotte, NC 28202
(704) 338-5307

Daniel K. Cahn
Counsel of Record
Law Offices of
Cahn & Cahn, P.C.
105 Maxess Road, Suite 124
Melville, NY 11747
(631) 752-1600
dcahn@cahnlaw.com

Counsel for Respondents

